COCKLE
2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214 \ egal B ties contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

ZAID ABDUL-AZIZ, Individually and
on behalf of all others similarly situated,
Petitioner,
vs.
NATIONAL BASKETBALL ASSOCIATION
PLAYERS’ PENSION PLAN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8545 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ A.
State of Nebraska : Mitte, , Chk,
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

 

39400
